December 28, 2020

By Electronic Filing and Electronic Mail
Ms. Denise McNerney
Merits Cases Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Cedar Point Nursery et al. v. Hassid et al., No. 20-107
Dear Ms. McNerney:
I am Counsel of Record for Petitioners in case No. 20-107. Petitioners
respectfully request an extension of time to file their opening brief on the merits
from the current date of December 28, 2020, to December 31, 2020. Because of the
Christmas and New Year’s holidays, Petitioners seek this three-day extension to
give interested amici more time to file their briefs. It is Petitioners’ first request for
an extension. Petitioners’ counsel has conferred with Respondents’ counsel, and
Respondents do not take a position on the requested relief.
Sincerely,

Joshua P. Thompson
Counsel of Record for Petitioners
cc: Mr. Josh Patashnik, counsel of record for Respondents

